NATIONAL CREDIT UNION ADMINISTRATION
     OFFICE OF INSPECTOR GENERAL




    REPORT OF INVESTIGATION

          Herbert S. Yolles /
    State Employees’ Credit Union

            May 1, 2012
                                     REDACTION KEY



1. Headings (all pages): Law Enforcement/Information that would disclose techniques and
   procedures for investigations or prosecutions. Protected by FOIA Exemption (b)(7)(E)

2. Page 1/Signature Lines. Law Enforcement/Personal Identifying Information (PII). Protected
   by FOIA Exemption (b)(7)(C)

3. Pages 4-6. Examination information. Protected by FOIA Exemption (b)(8)

4. Pages 7-9. Law Enforcement/PII. Protected by FOIA Exemption (b)(7)(C)
                          NATIONAL CREDIT UNION ADMINISTRATION
                                 Office of Inspector General
                                   Investigations Division


                                   REPORT OF INVESTIGATION

CASE NUMBER:

CASE TITLE:                Herbert S. Yolles

SUBJECT:                   Herbert S. Yolles, NCUA Regional Director, Region III-Atlanta,
                           7000 Central Parkway, Suite 1600, Atlanta, GA 30328

STATUS:                    Closed (05/01/12)

VIOLATIONS:     N/A
______________________________________________________________________

PREDICATION:

The National Credit Union Administration (NCUA) Inspector General William DeSarno
received a letter dated January 31, 2012 (Exhibit 1), from James C. Blaine, President,
State Employees’ Credit Union (SECU), Raleigh, North Carolina (NC), requesting that
the Office of Inspector General (OIG) “undertake a review of statements made about
SECU in a December 6, 2011 letter (Exhibit 2) from Mr. Herb Yolles, Region III Director
of NCUA to Ms. Jerrie Jay, Administrator of the North Carolina Credit Union Division
(NCCUD).” After a preliminary review of this matter, the OIG opened an investigation to
determine whether Yolles made false statements when he wrote the following in the
December 6, 2011, letter:

     1. As a secondary issue, at a joint conference with the full SECU Board on
        9/19/2011, you [Jay] announced that NCUA had initiated the process of
        termination of NCUSIF insurance of SECU share accounts.

     2. I am also very concerned about the leak of confidential examination documents.
        Specifically, at a meeting attended by your [Jay’s] office on 7/28/10 Mr. Blaine


      DISTRIBUTION:                              CASE AGENT:                                  APPROVED:

      Executive Director                                                                  William A. DeSarno
      David M. Marquis                                                                     Inspector General




This report is furnished on an official need to know basis and must be protected from dissemination which may
Compromise the best interests of the National Credit Union Administration Office of Inspector General. This report
shall not be released or disseminated to other parties without prior consultation with the Office of Inspector General.
UNAUTHORIZED RELEASE MAY RESULT IN CRIMINAL PROSECUTION.
REPORT OF INVESTIGATION                                                   CASE NUMBER:

           produced a rough draft working copy of a DOR1 which was being developed by
           NCUA.

To place the December 6, 2011, letter into context, Yolles presented the [post-dated]
letter to Jay at the close of a meeting in Jay’s office on December 5, 2011. In addition
to Jay and Yolles, NCUA Executive Director David Marquis and NCUA General Counsel
Michael McKenna were present at the meeting. In the first paragraph of the letter,
Yolles advised the NCCUD that effective January 1, 2012, NCUA would conduct
independent annual insurance reviews of all North Carolina (NC) state-chartered credit
unions. Yolles also notified Jay that NCUA would no longer provide computers or
training to the NCCUD and would begin directly processing quarterly call reports from
NC state-chartered credit unions. The second paragraph of the letter cited Jay’s
authorization for the public release of the state-issued CAMEL rating for SECU as an
unacceptable release of exempt records in violation of the NCUA Rules and
Regulations, Part 792 and, consequently, the reason for NCUA’s decision.

By letter to Marquis dated December 16, 2011 (Exhibit 3), Jay responded to the hand-
delivered December 6, 2011, letter. Under subparagraph (b) of her letter, Jay
referenced Yolles’ statement in the December 6, 2011, letter, that she had “announced
that NCUA had initiated the process of termination of NCUSIF share insurance of
(SECU) share account.” Jay wrote in the December 16 letter that, “[p]lainly stated, this
assertion is false.” Rather, Jay recounted, she “asked Herb Yolles more than once . . .
whether or not NCUA—by its own written correspondence—was instituting the process
of terminating the insurance status of the credit union.”

Also in the December 16 letter, Jay referenced Yolles’ statement that she leaked
confidential examination documents. Jay asserted that “[c]ontrary to NCUA’s assertion,
the document (the DOR) was given to Mr. Blaine, CEO of (SECU), by NCUA
examiner(s) at the NCUA’s management/exit conference.”

As noted above, Blaine contacted the OIG by letter dated January 31, 2012, seeking an
OIG review based on his belief that Yolles’ statements were false. The OIG limited its
investigation to Yolles’ statements that: (1) Jay announced that NCUA intended to
terminate SECU’s NCUSIF share insurance; and (2) Jay or someone in her office gave
an early draft of a DOR to SECU prior to the exit conference date. The OIG did not
review the issues of Jay’s authorization for SECU to release its CAMEL rating, the
NCUA’s determination that the release violated NCUA Rules and Regulations, Part 792,
or NCUA’s ensuing decision to conduct separate examinations of NC credit unions.

The OIG obtained information relevant to the allegations from a variety of sources,
including interviews, documents, and audiotapes obtained from NCUA, SECU, and
NCCUD, and a review of the audiotape transcripts for the two meetings between NCUA,

1
    Document of Resolution.


This report is furnished on an official need to know basis and must be protected from dissemination which may
Compromise the best interests of the National Credit Union Administration Office of Inspector General. This report
shall not be released or disseminated to other parties without prior consultation with the Office of Inspector General.
UNAUTHORIZED RELEASE MAY RESULT IN CRIMINAL PROSECUTION.
                                                           2
REPORT OF INVESTIGATION                                                   CASE NUMBER:

NCCUD, and/or SECU officials on September 19, 2011, and December 5, 2011,
respectively. 2 Moreover, on March 28, 2012, the RA met with Blaine and several other
SECU Board members, on-site at SECU administrative offices in Raleigh, NC. At that
time, the RA formally interviewed Blaine in connection with this investigation.

SUBJECT(S) INFORMATION:

Herbert S. Yolles, NCUA Regional Director, Region III-Atlanta, 7000 Central Parkway,
Suite 1600, Atlanta, GA 30328

DETAILS:

The OIG investigated whether Yolles made false statements in the December 6, 2011,
letter to Jay when he stated that:

      1. Jay announced, at a joint conference with the full SECU Board on September
         19, 2011, that NCUA had initiated the process of termination of NCUSIF
         insurance of SECU share accounts; and

      2. Jay or someone in the NCCUD leaked a confidential examination document (a
         rough draft working copy of a Document of Resolution (DOR)) to Blaine prior to
         or at the time of a July 28, 2010, meeting in Jay’s office.

(Emphasis added.)

Allegation 1:

The September 19, 2011, meeting took place at SECU administrative offices in Raleigh,
NC. Several NCUA representatives, including Yolles, met with Blaine, Jay, and the full
SECU Board of Directors to discuss the most recent NCUA insurance review. This was
the third special meeting the SECU Board had called with NCUA officials over the
previous 15 months. Both SECU and NCUA separately made audio-recordings of the
meeting. The OIG acquired copies of both the SECU and NCUA audio-recordings, and
confirmed that they were complete and matching recordings (Exhibit 4).

Both Blaine and Jay have maintained that Yolles’ assertion—as set forth in the
December 6 letter-- that Jay announced to the SECU Board at the September 19
meeting that NCUA had initiated the process of termination of NCUSIF insurance of
SECU share accounts, was false. (Emphasis added.) In letters to the OIG and NCUA,
as well in interviews with the Reporting Agent (RA), both stated that at that meeting, Jay
was inquiring---not announcing--whether or not NCUA was initiating the process of
terminating SECU’s insured status. Jay referred specifically to a letter from Yolles to

2
    The OIG contracted with Veritext (www.veritext.com) for transcription services.


This report is furnished on an official need to know basis and must be protected from dissemination which may
Compromise the best interests of the National Credit Union Administration Office of Inspector General. This report
shall not be released or disseminated to other parties without prior consultation with the Office of Inspector General.
UNAUTHORIZED RELEASE MAY RESULT IN CRIMINAL PROSECUTION.
                                                           3
REPORT OF INVESTIGATION                                                   CASE NUMBER:

Blaine, dated July 14, 2011 (Exhibit 5), wherein Yolles stated that “SECU
                                        ” Jay stated that her reading of the provisions of
the Federal Credit Union Act led her to conclude that when NCUA notified SECU in
writing that the credit union                                    , the NCUA was, in
effect, likewise notifying SECU that NCUA had taken the first step in the process of
terminating the SECU’s insured status. According to Jay, given NCUA’s declaration
that SECU                                       , “it would have been imprudent for me
[Jay] not to ask that question.” (Emphasis in original.)

Alternatively, in interviews and written exchanges with the OIG, Yolles maintained
unequivocally that the statements Jay made at the September 19 meeting--linking his
declaration in the July 14, 2011, letter that SECU
to NCUA’s process for termination of insurance status--were tantamount to an
announcement that NCUA had in fact initiated the share insurance termination process.

Given Jay and Yolles’ decidedly differing perceptions of Jay’s statements at the
September 19 meeting, the OIG listened to the audio-recordings of the meeting, and
perused the relevant portions of the transcript. In pertinent part, the transcript of the
discussion between Jay and Yolles on this issue was as follows:3

          JJ:     . . . You did write a letter, didn’t you, that said this institution
                                     ?

          HY:     I believe so.

                  ...

          JJ:    . . . So does your—here’s my question. As a regulator to an insurer, does
          your saying, as the representative of NCUA
                         are you putting—do you speak for the Board in that you represent
          the Board?

          HY:     Yes.

          JJ:   Okay. So that puts us on the track of the Board having declared this credit
          union                         .

          HY: I haven’t seen the NCUA Board declare anything regarding State
          Employees Credit Union.

          JJ:     You just said that you spoke for and it was—


3
    Punctuation represented is identical to that provided by Vertitext.


This report is furnished on an official need to know basis and must be protected from dissemination which may
Compromise the best interests of the National Credit Union Administration Office of Inspector General. This report
shall not be released or disseminated to other parties without prior consultation with the Office of Inspector General.
UNAUTHORIZED RELEASE MAY RESULT IN CRIMINAL PROSECUTION.
                                                           4
REPORT OF INVESTIGATION                                                   CASE NUMBER:

         HY:      I speak as a representative of NCUA.

         JJ:     . . . What I’m trying to get you to tell me is, have y’all put this credit union
         on track to withdrawal (sic) the insurance because the first thing you have to do
         is say this credit union                           and that’s what you did.

                  It’s clear in black and white. You wrote it. Right?

         HY:      No. I disagree with you strongly.

         JJ:      In what comment?

         HY: And so far I have not heard any discussion or any mention of termination
         of insurance.

         JJ:      You’re the one who—it’s in your letter.

         HY:      ---you raised that subject.

         JJ:      It was your letter.

         HY:      Can you show me where those words are in the letter, please?

         JJ:      Yes.

         HY:      On termination of insurance?

         JJ:   No. No. No. No. No. I can show you in the law where the first step is for
         the Board to                                       .

         HY:      You know, you’re raising that subject. I’m not.

         JJ:      Yes, I’m raising it. I’m the regulator.

         HY:      You are. You’re not the insurer.

                  ...

         HY: We don’t have a hidden agenda here of trying to find a way to terminate
         insurance. You’re the one—

         JJ:      It’s your letter, Herb.

         HY:      I don’t see the words termination of insurance in any of my letters.


This report is furnished on an official need to know basis and must be protected from dissemination which may
Compromise the best interests of the National Credit Union Administration Office of Inspector General. This report
shall not be released or disseminated to other parties without prior consultation with the Office of Inspector General.
UNAUTHORIZED RELEASE MAY RESULT IN CRIMINAL PROSECUTION.
                                                           5
REPORT OF INVESTIGATION                                                   CASE NUMBER:


         JJ:      That’s not what it said. That’s the first step of it in your law.

         HY:      In your mind it might be.

         JJ:      Your general counsel is sitting right back there.

         HY: In your mind it might be. I’m not even going there. I’m not even
         addressing that subject.

In listening to the audio-tape and reading the transcript, it is inarguable that Jay was
propounding insistently and persistently her concern that Yolles’ statement in the July
14, 2011, letter--that “                                                      ”--was linked
inextricably to NCUA’s rules for initiating the process of termination of share insurance
status. Nevertheless, an objective consideration of Jay’s voice inflection throughout the
exchange with Yolles could also lead a reasonable listener to conclude that Jay was
strategically attempting to extract from Yolles an admission that NCUA’s intention—
albeit unstated-- was to withdraw share insurance from SECU (if it had not already
begun to do so). Consequently, in listening to the audio-tape exchange between Jay
and Yolles and reading the transcript as a whole, rather than isolating each speaker’s
statements, Jay appears to be questioning Yolles about NCUA’s actual or prospective
intentions, much in the manner of a cross-examination, and not necessarily making an
unequivocal pronouncement that NCUA had in fact initiated the termination process.

On Yolles’ part, he insisted that Jay’s statements during the September 19 meeting
amounted to an announcement that NCUA had begun the process of withdrawing share
insurance from SECU, and that she was not merely questioning him. In support of his
interpretation of the exchange, Yolles pointed in particular to Jay’s statements as
follows:

         JJ:     . . . What I’m trying to get you to tell me is, have y’all put this credit union
         on track to withdrawal (sic) the insurance because the first thing you have to do
         is say this credit union                           and that’s what you did.

                  It’s clear in black and white. You wrote it. Right?

In particular, Yolles based his interpretation of Jay’s statements on the phrases “. . .
that’s what you did” and “[i]t’s clear in black in white.” However, in reading these
phrases in the context of the entire exchange, it seems more likely that Jay was
referring to Yolles’ statement in his July 14, 2011, letter (that “
                              ”), and not to an articulated NCUA decision to initiate the
process to withdraw share insurance from SECU. Indeed, Jay admitted that the July 14
letter did not raise the issue of termination of the share insurance (“. . . No. No. No.
No. No. . . .”).


This report is furnished on an official need to know basis and must be protected from dissemination which may
Compromise the best interests of the National Credit Union Administration Office of Inspector General. This report
shall not be released or disseminated to other parties without prior consultation with the Office of Inspector General.
UNAUTHORIZED RELEASE MAY RESULT IN CRIMINAL PROSECUTION.
                                                           6
REPORT OF INVESTIGATION                                                   CASE NUMBER:


Allegation 1 Findings:

A careful consideration of the exchange between Jay and Yolles at the September 19
meeting indicates that Jay was inquiring whether NCUA had initiated the process of
terminating SECU’s share insurance status, not “announcing” it. However, given the
leading nature of Jay’s questions and the heatedness of their exchange, we can see
how Yolles might have concluded that Jay’s statements amounted to an announcement.
Therefore, we cannot conclude that Yolles’ statement in his December 6 letter, viz., that
Jay announced that NCUA had initiated the process of termination of NCUSIF
insurance of SECU share accounts, meets the definition of a false statement under 18
U.S.C. § 1001.

Allegation 2:

In the same December 6, 2011, letter from Yolles to Jay, Yolles accused Jay or
someone in the NCCUD of leaking a confidential examination document (a rough draft
working copy of a DOR) to Blaine prior to or at the time of a July 28, 2010, meeting in
Jay’s office. According to Yolles, he and David Hibshman, NCUA Region III Associate
Regional Director-Programs, noticed that Blaine was reading from an early draft of a
DOR. Both Yolles and Hibshman told the RA that it was inappropriate for Blaine or any
other SECU official to have access to or possession of a draft DOR. According to
NCUA General Counsel McKenna, NCUA considers a draft DOR a confidential exam
document which is only made available to a credit union once it is a final document.
McKenna stated further that there is an understood expectation between NCUA and
state regulators that draft DORs will remain confidential.

The investigation found that on June 16, 2010, at 4:18 p.m., NCUA
                                                          NCCUD, copies of the draft
DOR for SECU, as well as a document entitled “Examiner’s Findings.” The
investigation found further that, by email dated June 16, 2010, (4:52 p.m.),          sent
an email to Jay forwarding as attachments the documents             had provided
          that afternoon. While the OIG was able to obtain a copy of the email from
        to Jay, wherein        stated “      provided me these draft documents before
leaving today,” that copy did not reflect an “Attachments:” line or include the referenced
documents. However, in an email dated June 18, 2010 (7:59 a.m.), Jay forwarded to
Mike Lord, SECU Senior Vice President of Finance,               email and two attachments
identified as 66310EF(2).doc and SECU DOR Draft 6-16-2010.doc. In response to the
RA’s request, on March 30, 2012, Lord sent copies of these attachments to the RA via
email (Exhibit 6). The RA verified that the attached documents, identified as
66310EF(2).doc and SECU DOR Draft 6-16-2010.doc, were the Examiner’s Findings
document and the draft DOR, respectively.




This report is furnished on an official need to know basis and must be protected from dissemination which may
Compromise the best interests of the National Credit Union Administration Office of Inspector General. This report
shall not be released or disseminated to other parties without prior consultation with the Office of Inspector General.
UNAUTHORIZED RELEASE MAY RESULT IN CRIMINAL PROSECUTION.
                                                           7
REPORT OF INVESTIGATION                                                   CASE NUMBER:

On June 17, 2010 (10:01 a.m.),        further emailed         a document entitled
“NCUA Contact Items” (Exhibit 7).         indicated that through another individual,
also routed the NCUA Contact Items document to Lord. The RA reviewed the draft
DOR and the NCUA Contact Items document and found that while the formatting was
different, the Contact Items document contained information identical to information in
the DOR.

On March 20, 2012, the RA interviewed Yolles regarding the unauthorized disclosure
allegation. The RA asked Yolles if he had actually seen the draft DOR in Blaine’s
possession at the July 18 meeting. At that time, Yolles stated he did not remember
exactly, but was 50/50 certain that Blaine was reading from the DOR. The RA informed
Yolles that a document (NCUA Contact Items) given to SECU by              contained
information identical to what was in the draft DOR, and asked Yolles whether it was
possible that Blaine was reading from the Contact Items document rather than the DOR.
Yolles stated he was still pretty certain Blaine was reading from the draft DOR. Yolles
explained further that based on an inquiry his office conducted, he concluded that no
one at NCUA provided the draft DOR to SECU; rather, the only way SECU could have
obtained it would have been from someone at the NCCUD.

On April 10, 2012, the RA re-interviewed Yolles at his request. Yolles indicated that he
wished to discuss statements he had made in his earlier interview. He stated that after
rethinking those statements, he was now 100% positive that Blaine had the draft DOR
in his possession at the July 28, 2010, meeting. The RA asked why he changed his
previous statement that he was only 50/50 certain that the document Blaine was
reading from was the draft DOR, rather than the NCUA Contact Items document. Yolles
stated he originally answered as he did to “err on the side of caution.” He stated that
after reconsidering, he now had no doubt that the document Blaine possessed was a
draft DOR. Yolles further recalled asking Blaine during that meeting what he (Blaine)
was reading from. He stated that Blaine showed both him and Hibshman a marked up
version of a NCUA draft DOR. Yolles stated his memory was now “crystal clear” with
regard to what he saw in Blaine’s possession.

On April 10, 2012, the RA interviewed Hibshman. Hibshman stated he was in
attendance at the July 28, 2010, meeting in Jay’s office. He stated this meeting was
extremely short and was meant to deal with issues between NCUA and SECU.
Hibshman stated that during the meeting, Blaine was quoting from a document which
mentioned several issues dealing with exam requirements. He recalled Yolles asked
Blaine what he was reading from and Blaine showed them (Yolles and Hibshman) a
draft DOR. Additionally, Hibshman stated Blaine referred to the document as a DOR.
He recounted that Yolles explained to Blaine that several of the issues on the draft DOR
were already resolved, since it was an early draft. Hibshman stated he saw the draft
DOR in Blaine’s possession. He stated it was not the NCUA Contact Items document
given to SECU by        .



This report is furnished on an official need to know basis and must be protected from dissemination which may
Compromise the best interests of the National Credit Union Administration Office of Inspector General. This report
shall not be released or disseminated to other parties without prior consultation with the Office of Inspector General.
UNAUTHORIZED RELEASE MAY RESULT IN CRIMINAL PROSECUTION.
                                                           8
REPORT OF INVESTIGATION                                                   CASE NUMBER:

On April 17, 2012, the RA spoke with Jay about the email she sent to Lord on June 18,
2010 (Exhibit 8). Jay stated she was unable to find this email because her computer
system had been changed since 2010, and older emails were purged. She stated that,
given what Lord provided the RA, she had no reason to doubt that the draft DOR was
an attachment to her email to Lord. She indicated that she did not recall attaching the
DOR to the email and, if she did, it was unintentional. Jay pointed out that the NCUA
Contact Items document (provided to SECU by            ) and the draft DOR were virtually
the same document and contained the exact same information. Jay told the RA that
she would have discussed this information with SECU in order to prepare for the
meeting with NCUA, SECU, and herself. She stated this is standard procedure for the
regulator (Exhibit 9).

Allegation 2 Findings:

The investigation substantiated that Jay attached a copy of the draft DOR to her email
to Lord on July 18, 2010. Consequently, the evidence does not support a finding that
Yolles’ statement in the December 6, 2011, letter was false.




This report is furnished on an official need to know basis and must be protected from dissemination which may
Compromise the best interests of the National Credit Union Administration Office of Inspector General. This report
shall not be released or disseminated to other parties without prior consultation with the Office of Inspector General.
UNAUTHORIZED RELEASE MAY RESULT IN CRIMINAL PROSECUTION.
                                                           9
